CERTIFICATE OF COMPLIANCE

No.

BELLFLOWER UNIFIED SCHOOL DISTRICT,

Petitioner,
ve

FERNANDO LUA, individually and on behalf of minor K.L.,
SANDRA LUA, individually and on behalf of minor K.L.

Respondents.

As required by Supreme Court Rule 33.1(h), I
certify that the enclosed Petition for Writ of Certiorari
contains 8,735 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d)

I declare under penalty of perjury that the
foregoing is true and correct.

Executed on April _29, 2021.

   

Richard D. Brady ]

Counsel for Petitioner
BELLFLOWER UNIFIED SCHOOL
DISTRICT
